Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    MEDICARE PAYMENTS FOR
 VACUUM ERECTION SYSTEMS ARE
MORE THAN TWICE AS MUCH AS THE
 AMOUNTS PAID FOR THE SAME OR
      SIMILAR DEVICES BY
    NON-MEDICARE PAYERS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2013
                                                      A-07-12-05024
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                    EXECUTIVE SUMMARY

  Medicare currently pays more than twice as much for vacuum erection systems as
  non-Medicare payers pay for these types of devices. If Medicare reduced payment to the
  level of non-Medicare payers, the Federal Government could save about $18 million and
  Medicare beneficiaries could save about $4.5 million each year.

WHY WE DID THIS REVIEW

During a previous Office of Inspector General review of one of the Nation’s major suppliers of
male vacuum erection systems (VES), we noted that Medicare payments for VES were
significantly greater than the prices available to non-Medicare payers. Additionally, an
August 1999 edition of the Federal Register included a notice that proposed, for six categories of
durable medical equipment (DME), prosthetics, orthotics, and supplies (DMEPOS), special
payment limits to replace the current fee schedule amounts for these items. VES were included
as one of the six categories. The notice stated that the Medicare fee schedule amounts in effect
at the time for VES were—in terms used in relevant Federal regulations—grossly excessive and,
therefore, not inherently reasonable. The Centers for Medicare & Medicaid Services (CMS) did
not finalize the proposed notice, and as a result, the fee schedule amounts for VES were not
replaced by the special payment limit.

The objective of this review was to determine whether the Medicare payment amounts for VES
remained grossly excessive compared with the amounts paid by non-Medicare payers.

BACKGROUND

Under the provisions of the Social Security Act (the Act), Medicare Part B provides
supplementary medical insurance for medical and other health services, including coverage of
DMEPOS. VES are a type of DMEPOS that is eligible for Part B coverage.

Generally, Federal statute requires CMS to use a fee schedule payment methodology to pay
DMEPOS suppliers. Medicare Part B has different payment methodologies for different
categories of medical equipment and supplies. For example, the Medicare fee schedule payment
amounts for orthotic and prosthetic devices are based on historical supplier charges, which may
become inconsistent with market prices over time.

Generally, to determine the Medicare payment for DMEPOS, the DME Medicare administrative
contractors must first determine the allowable amount, which is the lower of the actual charge for
the item or the fee schedule amount. Then, the beneficiary’s unmet deductible is subtracted from
the allowable amount. Medicare pays 80 percent and the beneficiary pays 20 percent of any
remaining allowable amount.

Federal statutes and regulations give CMS the authority to determine whether the standard
methods of determining the fee schedule amounts have resulted in unreasonably high or low
payment amounts for particular items or services. In such cases, CMS also has the authority to
use different pricing methods to align payment amounts with the current market prices for the


Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   i
same or similar items or services. Currently, CMS has the authority to adjust payment amounts
using the inherent reasonableness process and to hold competitions in the DMEPOS Competitive
Bidding Program. Both methods are applicable to DMEPOS; this review focused on the cost
savings that could be realized through the application of either method to VES.

The inherent reasonableness process is promulgated by language in the Act and Federal
regulations, which provides that if CMS determines that the standard methods of determining fee
schedule amounts have resulted or will result in “grossly deficient or excessive amounts”
(42 CFR § 405.502(g)(1)(ii) – (iii)), CMS may establish special payment limits that are realistic
and equitable for a category of items or services to replace the current fee schedule amounts.
These regulations also specify the process through which CMS must announce and implement
new payment rates.

Federal legislation in 2003 mandated that CMS establish a Competitive Bidding Program for
certain DMEPOS items and services. Under this program, CMS awards contracts to enough
suppliers to meet beneficiary demand for the items that it has designated for competitive bidding
(bid items). The new, lower payment amounts resulting from the competition replace the
Medicare DMEPOS fee schedule amounts for the bid items in competitive bidding areas.

Subsequent legislation in 2008 included mail-order items in the Competitive Bidding Program.
Implementation of this program in the context of DMEPOS is relatively recent, and at present is
limited to certain items and services. During our review of one of the Nation’s major suppliers
of VES, we noted that the majority of these devices are ordered by phone, email, Internet, or
mail and shipped or delivered to the beneficiary’s residence, thus meeting the definition of a
mail-order item. However, prosthetic devices such as VES are currently not included in the
Competitive Bidding Program.

For calendar years (CYs) 2006 to 2011, Medicare paid 473,620 VES claims totaling
approximately $172.4 million. Over the same 6-year period, the yearly claimed amount for VES
nearly doubled, from $20.6 million in CY 2006 to $38.6 million in CY 2011.

WHAT WE FOUND

Medicare payment amounts for VES remain grossly excessive compared with the amounts that
non-Medicare payers pay. Medicare currently pays suppliers more than twice as much for VES
as the Department of Veterans Affairs and consumers over the Internet pay for these types of
devices.

Processes exist to remedy this imbalance by adjusting Medicare payment rates for VES. Use of
the inherent reasonableness process would achieve cost savings. If the Medicare fee schedule
amount for VES had been adjusted to approximate the amount paid for the same or similar
devices by non-Medicare payers, the Federal Government would have saved an average of
approximately $14.4 million for each of the 6 years reviewed, and Medicare beneficiaries would
have saved approximately $3.6 million annually. We are unable to calculate precise cost savings
that would be achieved through application of the Competitive Bidding Program to VES.
However, CMS recently announced that the latest round of competitive bidding will reduce



Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   ii
prices by 45 percent for certain types of DMEPOS and by 72 percent for mail-order diabetic
testing supplies nationwide.

Further, we estimate that if claim levels remain the same in future years as they were on average
for CYs 2009 through 2011, the potential annual savings to the Federal Government and
Medicare beneficiaries through adjusted VES payment rates would be approximately $18 million
and $4.5 million, respectively.

WHAT WE RECOMMEND

We recommend that CMS:

    •   use its authority under the inherent reasonableness regulations to determine whether the
        payments for VES are grossly excessive and, if so, establish a special payment limit or

    •   seek legislative authority to include VES in the Competitive Bidding Program and then
        implement a National Mail-Order Competitive Bidding Program for VES.

CMS COMMENTS

In written comments to our draft report, CMS concurred with both of our recommendations.
CMS stated that it would consider whether valid and reliable data required by the inherent
reasonableness regulations are available for use in determining whether the Medicare-allowed
payment amounts are grossly excessive. CMS also said that it would consider the inclusion of
VES in the Competitive Bidding Program when it develops the next President’s budget proposal.




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1
                 Medicare Coverage of Durable Medical Equipment, Prosthetics,
                   Orthotics, and Supplies .................................................................................... 1
                 Fee Schedule Payment Methodology.................................................................. 2
                 Methods With Which CMS May Adjust Payment Amounts .............................. 2
                 Vacuum Erection Systems .................................................................................. 4
                 Proposed Special Payment Limits ...................................................................... 5

           How We Conducted This Review................................................................................... 5

FINDINGS .................................................................................................................................. 6

           Medicare Payment Amounts for Vacuum Erection Systems Remain
            Grossly Excessive Compared With Amounts Paid by
            Non-Medicare Payers................................................................................................... 7
                 CMS Criteria for the Establishment of Special Payment Limits ........................ 7
                 Medicare Payment Amount ................................................................................ 7
                 Non-Medicare Payment Amounts....................................................................... 7
                 Medicare Payment Rate Is More Than Twice the Average
                   Payment Rate for Non-Medicare Payers.......................................................... 8
           Conclusion ...................................................................................................................... 8

RECOMMENDATIONS ............................................................................................................ 8

CMS COMMENTS .................................................................................................................... 8

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 9

           B: CMS Comments ...................................................................................................... 11




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)                                           iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

During a previous Office of Inspector General review 1 of one of the Nation’s major suppliers of
male vacuum erection systems (VES), we noted that Medicare payments for VES were
significantly greater than the prices available to non-Medicare payers. Additionally, an
August 1999 edition of the Federal Register 2 included a notice that proposed, for six categories
of durable medical equipment (DME), prosthetics, orthotics, and supplies (DMEPOS), special
payment limits to replace the current fee schedule amounts for these items. VES were included
as one of the six categories. The notice stated that the Medicare fee schedule amounts in effect
at the time for VES were—in terms used in relevant Federal regulations—grossly excessive and,
therefore, not inherently reasonable. The Centers for Medicare & Medicaid Services (CMS) did
not finalize the proposed notice, and as a result, the fee schedule amounts for VES were not
replaced by the special payment limit.

OBJECTIVE

Our objective was to determine whether the Medicare payment amounts for VES remained
grossly excessive compared with the amounts paid by non-Medicare payers.

BACKGROUND

Medicare Coverage of Durable Medical Equipment, Prosthetics,
Orthotics, and Supplies

Under the provisions of Title XVIII of the Social Security Act (the Act), the Medicare program
provides health insurance for people aged 65 and over, people with disabilities, and people with
permanent kidney disease. CMS administers the Medicare program.

Under the provisions of sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the
Act, Medicare Part B provides supplementary medical insurance for medical and other health
services, including coverage of DMEPOS. Section 1862(a)(1)(A) of the Act requires that, to be
paid by Medicare, a service or an item be reasonable and necessary for the diagnosis or treatment
of illness or injury or to improve the functioning of a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), 3 CMS contracted with four DME Medicare administrative contractors (DME MACs) to
process and pay suppliers’ Medicare Part B claims for DMEPOS.


1
 Pos-T-Vac Medical Did Not Meet Medicare Documentation Requirements for Over Half of Sampled Claims for
Male Vacuum Erection Systems (A-07-11-05016), issued June 14, 2012.
2
    64 Fed. Reg. 44227 (Aug. 13, 1999).
3
    P.L. No. 108-173 § 911(a) (adding Social Security Act, § 1874A, 42 U.S.C. § 1395kk-1).



Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   1
Fee Schedule Payment Methodology

Generally, Federal statute 4 requires CMS to use a fee schedule payment methodology to pay
DMEPOS suppliers. The methodology depends on the category of DMEPOS. For example, the
Medicare fee schedule payment amounts for orthotic and prosthetic devices are based on
historical supplier charges. Because Medicare’s payments are based on historical data, they may
become inconsistent with market prices over time.

Generally, to determine the Medicare payment for DMEPOS the DME MAC must first
determine the allowable amount, which is the lower of the actual charge for the item or the fee
schedule amount. Then, the beneficiary’s unmet deductible is subtracted from the allowable
amount. Medicare pays 80 percent and the beneficiary pays 20 percent of any remaining
allowable amount.

Methods With Which CMS May Adjust Payment Amounts

Federal statutes and regulations give CMS the authority to determine whether the standard
methods of determining the fee schedule amounts have resulted in unreasonably high or low
payment amounts for particular items or services. In such cases, CMS also has the authority to
use different pricing methods to align payment amounts with the current market prices for the
same or similar items or services. Currently, CMS has the authority to adjust payment amounts
using the inherent reasonableness process and to hold competitions in the DMEPOS Competitive
Bidding Program.

Inherent Reasonableness Process

Federal regulations provide that if CMS determines that the standard methods of determining fee
schedule amounts for certain categories of items or services (identified in section 1861(s) of the
Act) will result in “grossly deficient or excessive amounts” (42 CFR § 405.502(g)(1)(ii) – (iii)),
CMS may replace the current fee schedule amounts with special payment limits that are realistic
and equitable. CMS defines a payment amount to be grossly excessive or deficient if an overall
payment adjustment of 15 percent or more is necessary to produce a realistic and equitable
payment amount.

Federal regulations provide examples of factors or considerations that may result in grossly
deficient or excess payment amounts (42 CFR § 405.502(g)(1)(vii)). CMS uses these factors to
determine whether fee schedule amounts for a category of items or services are inherently
unreasonable and should be adjusted upward or downward. These factors include, but are not
limited to, the following:




4
 Specifically, see section 4062(b) of the Omnibus Budget Reconciliation Act (OBRA) of 1987 (P.L No. 100-203),
which added section 1834(a) to the Social Security Act. OBRA of 1990 (P.L. No, 101-508) added a separate
subsection, 1834(h), specifically for prosthetics and orthotics.



Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)        2
      •    Payment amounts are grossly higher or lower than acquisition or production costs
           for the category of items or services.

      •    Payment amounts are grossly higher or lower than the payments made for the
           same category of items or services by other purchasers in the same locality.

Any changes that CMS makes to the payment amounts through the inherent reasonableness
process apply nationally (42 CFR § 405.502(g)(1)(iii)). Before adopting new payment amounts
for a category of items or services, CMS must publish proposed and final notices in the Federal
Register (42 CFR § 405.502(g)(3)(i)). These notices provide the criteria and circumstances, if
any, under which a DME MAC may grant an exception to the payment amount.

Competitive Bidding Program

The MMA mandates the establishment of the DMEPOS Competitive Bidding Program, which
requires that CMS replace the current fee schedule payment methodology for selected DMEPOS
items with a competitive bid process in competitive bidding areas. Under this program, CMS
awards contracts to enough suppliers to meet beneficiary demand for items that it has designated
for competitive bidding (bid items); not all items are subject to competitive bidding. The new,
lower payment amounts resulting from the competition replace the Medicare DMEPOS fee
schedule amounts. Generally, Federal law limits the Competitive Bidding Program to DME and
medical supplies, enteral nutrition, and off-the-shelf orthotics. 5 Accordingly, prosthetic devices
are currently not included in the Competitive Bidding Program.

The Medicare Improvements for Patients and Providers Act of 2008 (MIPPA) 6 temporarily
delayed the Competitive Bidding Program. As a result, the first round of the Competitive
Bidding Program, referred to as the Round 1 Rebid, became effective on January 1, 2011. In
addition, the MIPPA authorized national mail-order competitions after 2010 and set forth special
rules that apply to competitions for diabetic test supplies, including national mail-order
competitions. The first national mail-order competitive bidding program became effective in
July 2013, but it was limited to diabetic test supplies. Other types of DMEPOS were not
included.

The term “mail-order item” means “any item (for example, diabetic testing supplies) shipped or
delivered to the beneficiary’s home, regardless of the method of delivery.” 7 Accordingly, the
definition of mail-order item includes items delivered by company-owned or personal vehicles.
For example, a beneficiary or caregiver may go to a retail store to pick up diabetic supplies or
have them shipped or delivered to the home. Under the National Mail-Order Program, if
beneficiaries choose to have their DMEPOS items delivered to their homes by any method, the
items must be ordered from national mail order contract suppliers.

5
    The Act, § 1847(a)(2), 42 U.S.C. § 1395w-3(a)(2).
6
    P.L. No. 110-275 § 154.
7
 42 CFR § 414.402 (as added by 75 Fed. Reg. 73170 (Nov. 29, 2010)). This definition of “mail-order item” did not
apply to the Round 1 Rebid competition. 75 Fed. Reg. at 73570.


Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)           3
Vacuum Erection Systems

Because VES are used to treat impotence, and because impotence is a failure of the body part for
which the diagnosis, and frequently the treatment, requires medical expertise, 8 VES constitute a
type of DMEPOS eligible for coverage under Part B. Coverage for VES is provided under the
prosthetic benefit, which stipulates that the device must be used to replace all or part of an
internal body organ. During our review of one of the Nation’s major suppliers of VES, 9 we
noted that the majority of these devices are ordered by phone, email, Internet, or mail and
shipped or delivered to the beneficiary’s residence, thus meeting the definition of a mail-order
item.

When submitting claims to DME MACs, suppliers use Healthcare Common Procedure Coding
System (HCPCS) codes. 10 Prosthetic suppliers submit claims for VES using HCPCS code
L7900.

From calendar years (CYs) 2006 to 2011, Medicare paid 473,620 VES claims totaling
approximately $172.4 million. Over the same 6-year period, the yearly claimed amount for VES
nearly doubled from $20.6 million in CY 2006 to $38.6 million in CY 2011 (see the figure
below).


                          Medicare Paid Claim Totals for VES in
                                       Millions
                                                                                                  $38.6
                                                                                  $36.1
                                                                  $33.2


                                                  $23.2
                 $20.6           $20.7




                 2006            2007             2008            2009            2010             2011




8
    This classification appears in national coverage determination for diagnosis and treatment of impotence (230.4).
9
    See footnote 1.
10
  HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.



Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)               4
Over the same period, the number of Medicare paid claims for VES also nearly doubled, from
61,589 in CY 2006 to 103,448 in CY 2011. The average Medicare payment for VES over this
period was $360.93. The average beneficiary copay amount was $90.23.

Proposed Special Payment Limits

In August 1999, CMS issued a proposed notice in the Federal Register 11 that proposed, for VES
and five other DMEPOS devices, special payment limits to replace the current fee schedule
amounts. The proposed notice stated that CMS had determined that the Medicare fee schedule
amounts for VES were “grossly excessive” and therefore not inherently reasonable. The purpose
of the special payment limits was to prevent continuation of excessive payments for the VES.
The special payment limits in the proposed notice were based on the median wholesale prices
paid by the Department of Veterans Affairs (VA) for these items plus an appropriate markup.

In the proposed notice, CMS stated that the median wholesale payment amount paid by VA for
the VES was $131.65. Then, using a markup of 67 percent, CMS calculated an estimated retail
payment amount of $219.86. Accordingly, CMS proposed that the special payment limit for
purchase of the VES would be $219.86 and that Medicare payment for VES would be equal to
80 percent of the lesser of the actual charge or the special payment limit.

In response to the proposed change, the medical equipment industry expressed concerns about
the payment limits. Consequently, Congress included a provision in the Balanced Budget
Refinement Act of 1999 that instructed the Government Accountability Office (GAO) to
examine the proposed regulation and the use of the inherent reasonableness authority. 12 GAO’s
report, issued in July 2000, was generally supportive of CMS’s previous implementation of the
inherent reasonableness authority. 13 CMS issued a final notice in December 2002 that
implemented a process for using its inherent reasonableness authority to eliminate excessive
payments by reducing reimbursements for Medicare Part B services and equipment when
payments are grossly excessive. 14 However, CMS has not used that authority to adjust pricing
for VES.

HOW WE CONDUCTED THIS REVIEW

From CMS’s National Claims History file, we extracted Medicare claims for VES that used
HCPCS code L7900 for CYs 2006 through 2011. For this period, Medicare paid 473,620 VES
claims totaling approximately $172.4 million. We used this data to determine the total payments
for VES by both Medicare and its beneficiaries.




11
     See footnote 2.
12
     P.L. No. 106-113 § 223.
13
     Use of Revised “Inherent Reasonableness” Process Generally Appropriate. GAO/HEHS-00-79, July 5, 2000.
14
     70 Fed. Reg. 73623 (Dec. 13, 2005).


Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)     5
We compared VA’s contracted prices and online prices with the Medicare payment amounts for
VES. To determine the current amount that VA paid for VES, we obtained from VA, National
Acquisition Center’s Socioeconomic Contract Repository, MedSurg Catalog, a listing of
contracted prices for VES. To determine the prices at which VES were available to consumers
over the Internet, we identified prices using two widely used search engines (Google and
Yahoo).

Appendix A contains details of our audit scope and methodology.

We did not perform a detailed review of CMS’s internal controls or its process for determining
Medicare DMEPOS fee schedule amounts because our objective did not require us to do so. We
limited our review to the comparison of prices for VES.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                             FINDINGS

Medicare payment amounts for VES remain grossly excessive compared with the amounts that
non-Medicare payers pay. Medicare currently pays suppliers more than twice as much for VES
as VA and consumers over the Internet pay for these types of devices.

Processes exist to remedy this imbalance by adjusting Medicare payment rates for VES. Use of
the inherent reasonableness process would achieve cost savings. If the Medicare fee schedule
amount for VES had been adjusted to approximate the amount paid for the same or similar
devices by non-Medicare payers, the Federal Government would have saved an average of
approximately $14.4 million for each of the 6 years reviewed, and Medicare beneficiaries would
have saved approximately $3.6 million annually. We are unable to calculate precise cost savings
that would be achieved through application of the Competitive Bidding Program to VES.
However, CMS recently announced that the latest round of competitive bidding will reduce
prices by 45 percent for certain types of DMEPOS and by 72 percent for mail-order diabetic
testing supplies nationwide.

Further, we estimate that if claim levels remain the same in future years as they were on average
for CYs 2009 through 2011, the potential annual savings to the Federal Government and
Medicare beneficiaries through adjusted VES payment rates would be approximately $18 million
and $4.5 million, respectively.




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   6
MEDICARE PAYMENT AMOUNTS FOR VACUUM ERECTION SYSTEMS REMAIN
GROSSLY EXCESSIVE COMPARED WITH AMOUNTS PAID BY
NON-MEDICARE PAYERS

CMS Criteria for the Establishment of Special Payment Limits

Federal regulations provide that if CMS determines that the standard methods of determining fee
schedule amounts for certain categories of items or services (identified in section 1861(s) of the
Act) will result in “grossly deficient or excessive amounts” (42 CFR § 405.502(g)(1)(ii) – (iii)),
CMS may establish special payment limits that are realistic and equitable for a category of items
or services.

In the December 13, 2002, interim final rule (67 Fed. Reg. 76684 (Dec. 13, 2002)), CMS
clarified when a payment amount is considered grossly excessive or deficient. As specified in
45 CFR § 405.502(g)(1)(ii), a payment amount will not be considered grossly excessive or
grossly deficient if the overall payment adjustment is less than 15 percent. The Act provides two
different processes once a determination is made that a payment amount is grossly excessive or
deficient: a process for adjustments of 15 percent or more in a given year and a simplified
process for adjustments of less than 15 percent in a given year (sections 1842(b)(8) and (b)(9) of
the Act).

Medicare Payment Amount

On the basis of our review of Medicare VES claims for CYs 2006 through 2011, we determined
that the average price paid was $451.16. Of that amount, Medicare paid an average of $360.93.
Because the beneficiary was responsible for 20 percent of the price paid, plus any unmet
deductible, we determined that the beneficiary paid an average of $90.23.

Non-Medicare Payment Amounts

On the basis of our review of VA’s contracted rates and of Internet prices available to
consumers, we determined that the average amount paid by non-Medicare payers was $175.35.

VA’s MedSurg Catalog’s listings specified 10 VES from 7 different suppliers. The contracted
rates for these devices ranged from $78.19 to $300.87. The average price for a VES that VA
paid was $185.96.

We identified Internet prices available to consumers using two widely used search engines
(Google and Yahoo). Research on 22 different Web sites yielded pricing information for 105
VES from 10 different manufacturers or suppliers. The average Internet price for each of the
105 VES was $164.74.




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   7
Medicare Payment Rate Is More Than Twice the Average
Payment Rate for Non-Medicare Payers

On the basis of our review, Medicare payment amounts for VES remain grossly excessive
compared with the amounts that non-Medicare payers pay. Specifically, the Medicare fee
schedule payment rate is more than twice the average payment rate for the non-Medicare payers.
Consequently, the Medicare program and Medicare beneficiaries lose potential cost savings. By
adjusting the Medicare fee schedule rate to reflect the average VA payment rate and prices
available over the Internet, the potential annual saving to the Federal Government is
approximately $18 million, and the potential cost saving to Medicare beneficiaries is
approximately $4.5 million. 15

CONCLUSION

We encourage CMS to study these audit results and consider the impact of adjusting the fee
schedule amount for VES. Because of the method by which VES are frequently ordered and
delivered, it is cost-beneficial to add VES to the National Mail-Order Program within the
Competitive Bidding Program.

                                        RECOMMENDATIONS

We recommend that CMS:

     •   use its authority under the inherent reasonableness regulations to determine whether the
         payments for VES are grossly excessive and, if so, establish a special payment limit or

     •   seek legislative authority to include VES in the Competitive Bidding Program and then
         implement a National Mail-Order Competitive Bidding Program for VES.

                                           CMS COMMENTS

In written comments to our draft report, CMS concurred with both of our recommendations.
CMS stated that it would consider whether valid and reliable data required by the inherent
reasonableness regulations are available for use in determining whether the Medicare-allowed
payment amounts are grossly excessive. CMS also said that it would consider the inclusion of
VES in the Competitive Bidding Program when it develops the next President’s budget proposal.

CMS’s comments are included in their entirety as Appendix B.




15
  We calculated these potential cost savings by taking the average annual Medicare payment totals for VES from
CYs 2009 through 2011 and dividing them in half on the basis of our conclusion that Medicare payment amounts are
twice the amount of non-Medicare payment amounts.


Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)           8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

From CMS’s National Claims History file, we extracted Medicare claims for VES that used
HCPCS code L7900 for CYs 2006 through 2011. For this period, Medicare paid 473,620 VES
claims totaling approximately $172.4 million.

We did not perform a detailed review of CMS’s internal controls or its process for determining
Medicare DMEPOS fee schedule amounts because our objective did not require us to do so. We
limited our review to the comparison of varying prices for VES.

We conducted our audit work between June 2012 and February 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance relating to VES;

    •   interviewed CMS officials about the use of the inherent reasonableness process, the
        Inherent Reasonableness Authority, and the Competitive Bidding Program, including the
        National Mail-Order Program;

    •   obtained the VES claims data for CYs 2006 through 2011 from CMS’s National Claims
        History database;

    •   obtained from VA National Acquisition Center’s Socioeconomic Contract Repository,
        MedSurg Catalog, a listing of contracted prices for VES;

    •   obtained prices for 105 VES from 22 different Internet sites containing prices from 10
        different manufacturers or suppliers of VES;

    •   compared the average VES amount from the Medicare claims with the average VES
        amounts for both VA and prices available over the Internet to demonstrate the difference
        in what Medicare pays compared with non-Medicare payers;

    •   calculated potential cost savings to the Medicare program and Medicare beneficiaries
        based on (1) our conclusion that the total Medicare payment rate is more than twice the
        non-Medicare payment rates and (2) our assumption that Medicare pays 80 percent of the
        total payment and the beneficiary is responsible for the remaining 20 percent of the total
        payment; and

    •   discussed the results of our review with CMS officials on February 12, 2013.




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   9
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   10
                               APPENDIX B: CMS COMMENTS




Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   11
Medicare Pays More Than Twice as Much for Vacuum Erection Systems as Non-Medicare Payers (A-07-12-05024)   12
